                                                       Office of Inspector General
                                                      Corporation for National and
                                                               Community Service




             AGREED-UPON PROCEDURES OF
            CORPORATION FOR NATIONAL AND
                COMMUNITY SERVICE
                GRANTS AWARDED TO
                 TEACH FOR AMERICA

                OIG REPORT NUMBER 07-13




                          Prepared by:

              COTTON & COMPANY, LLP
               635 Slaters Lane, 4th Floor
               Alexandria, Virginia 22314




This report was issued to Corporation management on January 29, 2007. Under the laws
and regulations governing follow-up, the Corporation is to make final management
decisions on the report’s findings and recommendations no later than July 30, 2007, and
complete its corrective actions by January 29, 2008. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL
                                    January 29, 2007


TO:           Kristin McSwain
              Director, AmeriCorps*State & National

              Margaret Rosenberry
              Director, Office of Grants Management


FROM:         Carol Bates
              Assistant Inspector General for Audit

SUBJECT:      OIG Audit Report 07-13, Agreed-Upon Procedures of Corporation for National
              and Community Service Grants Awarded to Teach for America

We contracted with the independent certified public accounting firm of Cotton & Company LLP
(Cotton) to perform an agreed-upon procedures of compliance testing member files for grants
awarded to Teach for America. The contract required that Cotton conduct the audit in
accordance with generally accepted government auditing standards.

The agreed upon procedure testing was limited to member compliance. Education awards of
approximately $138,000 were questioned in most instances for lack of citizenship documentation
and lack of time sheets. The agreed upon procedures also noted nine findings on internal
controls and compliance with grant terms relating to incomplete or missing member forms, late
Web Based Reporting System (WBRS) input, and WBRS information not supported by required
documentation.

Cotton is responsible for the attached auditor’s report, dated November 27, 2006, and the results
therein.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by July 30, 2007. Notice of final action is due by January 29, 2008.




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                          Senior Corps   AmeriCorps   Learn and Serve America
If you have questions pertaining to this report, please call me at 202-606-9356 or you may call
Richard Samson, Audit Manager at 202-606-9380.

Attachment

cc:   Reshma Singh, Vice President, Development Operations, Teach for America
      Miguel Rossy, Senior Vice President, Finance and Operations, Teach for America
      Elizabeth Seale, Chief Operating Officer
      Jerry Bridges, Chief Financial Officer
      Bill Anderson, Deputy Chief Financial Officer
      Andrew Kleine, Deputy Chief Financial Officer
      Lois Nembhard, Deputy Director, AmeriCorps*State & National
      Sherry Wright, Audit Resolution Coordinator
      Michael Gillespie, Partner, Cotton & Company LLP
                                OFFICE OF INSPECTOR GENERAL
                                AGREED-UPON PROCEDURES FOR
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     GRANTS AWARDED TO
                                     TEACH FOR AMERICA


                                                          CONTENTS

Section                                                                                                                         Page

Executive Summary ...........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures………………. 3

Appendices

A: Agreed-Upon Procedures
B: Teach For America’s Response to Agreed-Upon Procedures Report
C: Corporation’s Response to Agreed-Upon Procedures Report
                                      EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures to
assist the OIG in compliance testing member files for National Direct and Education Award-Only
grants awarded to Teach for America (TFA).

BACKGROUND

The Corporation supports national and community service programs that provide full- and part-
time opportunities for Americans to engage in service that fosters civic responsibility, strengthens
communities, and provides educational opportunities for those who make a commitment to
service. The AmeriCorps program is one of the Corporation’s three major service initiatives.
Approximately three-quarters of all AmeriCorps grant funding goes to governor-appointed State
service commissions, which award competitive grants to nonprofit groups that then recruit
AmeriCorps members to respond to local needs. The Corporation distributes most of the balance
of its funding directly to multi-State and national organizations such as TFA through a
competitive grant process.

TFA is a nonprofit organization headquartered in New York City. It operates a national corps of
recent college graduates representing all academic majors who commit to teach in urban and rural
public schools for two years and to become leaders in ensuring educational equity and excellence
for all children. TFA’s mission is to build the movement to eliminate educational inequity by
enlisting the nation's future leaders. More than 3,500 members are teaching in more than 1,000
schools across the country.

AGREED-UPON PROCEDURES SCOPE AND RESULTS

Cotton & Company performed the agreed-upon procedures listed in Appendix A for the National
Direct and Education Award-Only grants for Program Years (PYs) 2004-2005 and 2005-2006.
Our procedures covered testing of the following grants:

            Program                        Award No.               Award Period
            National Direct              04NDHNY002             7/15/2004-7/14/2007
            Education Award-Only         04EDHNY002             4/1/2004-3/31/2007

We conducted our field work in August and September 2006.




                                                 1
SUMMARY OF RESULTS

1.     Many member files did not include documentation to support eligibility.

2.     Some timesheets did not support member eligibility for education awards, several
       timesheet hours were not accurately recorded by TFA in the Corporation’s Web-Based
       Reporting System (WBRS) or reviewed for reasonableness.

3.     Some members began and were credited for service before the start of the grant and
       program year.

4.     TFA did not document its decision to grant an education award to a member who left the
       program for compelling personal circumstances.

5.     TFA did not have documentation to support criminal record checks as part of the member
       screening process.

6.     TFA did not complete most member enrollment, exit, and change-of-status forms and
       enter them into WBRS in a timely manner.

7.     Most member contracts were not signed and several did not include all required elements.

8.     TFA did not conduct member evaluations that met AmeriCorps requirements and did not
       document all evaluations.

9.     TFA reported excessive hours for training and educational activities for some members.

10.    TFA did not retain documentation of member attendance at orientation sessions.

For each of the issues summarized above and described on pages 3 through 14 of this report, the
Corporation should perform on-site monitoring or other oversight methods to ensure
implementation of corrective actions and adherence to grant provisions and regulations. The TFA
policies and procedures need to be tested by the Corporation to verify the controls are effective.
The Corporation should recover inappropriately earned education awards. For those not eligible
to serve, the fees for the Education Award-Only grant should also be recovered.

EXIT CONFERENCE

We conducted an exit conference with TFA and Corporation representatives on November 21,
2006. Following that conference, a draft of the report was issued to both TFA and the
Corporation for comment. Their responses to the draft report are included as Appendices B
and C, respectively. In addition, we included our summary of TFA’s and the Corporation’s
comments in this final report.



                                                2
November 27, 2006

Office of Inspector General
Corporation for National and Community Service


                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES


Cotton & Company LLP performed the procedures described in Appendix A, which were agreed
to by the Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), solely to assist the OIG in compliance testing member files for National Direct and
Education Award-Only grants for PYs 2004-2005 and 2005-2006 listed below. This agreed-upon
procedures engagement was performed in accordance with standards established by the American
Institute of Certified Public Accountants and generally accepted government auditing standards.
The sufficiency of these procedures is solely the responsibility of the OIG. Consequently, we
make no representation regarding the sufficiency of the procedures described below, either for the
purpose for which this report has been requested or any other purpose.

            Program                        Award No.               Award Period
            National Direct              04NDHNY002             7/15/2004-7/14/2007
            Education Award-Only         04EDHNY002             4/1/2004-3/31/2007

RESULTS OF AGREED-UPON PROCEDURES

We sampled the files of 265 members, using National Trust member rosters obtained from the
Corporation. The member files tested included 19 regional offices of the TFA program. Site
visits were conducted at TFA’s Washington, DC; Philadelphia; and New York City regional
offices. Results of procedures performed are provided below.

1.     Many member files did not include documentation to support eligibility.

Files for 65 members did not include documentation to support citizenship. The files for 23
members did not include citizenship documentation. The files for 42 members contained
documentation that is not acceptable as proof of citizenship, such as driver’s licenses and Social
Security Cards. According to 45 CFR § 2522.200, What are the eligibility requirements for an
                                                 3
AmeriCorps participant?, every AmeriCorps participant is required to be a citizen, national, or
lawful permanent resident alien of the United States. TFA did not have a policy for monitoring
its regional offices to ensure that they followed AmeriCorps requirements for supporting member
citizenship. After discussing this issue with TFA representatives, TFA provided copies of birth
certificates and passports to support the citizenship of 22 members (of the 65).

TFA was able to subsequently provide documentation to support citizenship for 16 members at
the exit conference. We questioned $88,219 of education awards for the 27 members for whom
TFA was unable to provide citizenship documentation.


                                                        Questioned
                            Award No.                Education Awards
                            04EDHNY002                     $39,351
                            04NDHNY002                      48,868
                            Total                          $88,219



Files for five members did not include documentation to support high school graduation or
agreement to obtain an equivalency certification. The self certification portion of the enrollment
form was either not included with the file or was not completed by the members. As an
alternative, we attempted to use college transcripts as evidence of high school graduation.
However, none of the five files contained college transcripts. According to 45 CFR § 2522.200,
every AmeriCorps participant is required to obtain a high-school diploma or equivalency
certificate. TFA did not have a policy for monitoring its regional offices to ensure that they
followed AmeriCorps requirements for supporting high school graduation ir agreement to obtain
equivalency certification. After discussing this issue with TFA representatives, TFA provided
support for high school graduation for 2 members (of the 5)..

Recommendation: We recommend that the Corporation:

       •       Require TFA to develop and implement policies and procedures to ensure that
               adequate documentation is obtained and maintained to verify member eligibility.

       •       Recover education awards for members determined to be ineligible.

       •       Calculate and recover from TFA the fixed amounts received for ineligible
               Education Award-Only grant members.

Responses: TFA modified its AmeriCorps policies and procedures to ensure that proper
eligibility documentation is obtained and maintained in the member files. Additionally, TFA
conducted training on member file documentation. The Corporation will work with the TFA staff
to secure the missing documentation and ensure appropriate documentation is collected in the
future.

                                                 4
Auditors’ Comments: The corrective actions, as described in the comments, are responsive to
our recommendations.

2.     Some timesheets did not support member eligibility for education awards, and
       several timesheet hours were not accurately recorded in the Corporation’s WBRS or
       reviewed for reasonableness.

Service hours recorded in WBRS for 43 members did not equal hours reported on member
timesheets. These differences did not affect member eligibility to earn education awards, because
the number of timesheet-supported service hours exceeded the Corporation’s service-hour
requirements. We also noted that timesheets for 15 additional members were missing from
member files.

The 2004 AmeriCorps Provision B.8.a., Terms of Service, Program Requirements, states that to
be eligible for an education award:

       •      full-time members must serve at least 1,700 hours;
       •      half-time members must serve at least 900 hours;
       •      reduced half-time members must serve at least 675 hours;
       •      quarter-time members must serve at least 450 hours; and
       •      minimum time members must serve at least 300 hours.

TFA did not have procedures in place to verify the accuracy of hours recorded in WBRS and on
timesheets or to ensure that member timesheets were maintained in member files. TFA could not
explain discrepancies between hours recorded on the timesheets and in WBRS or why timesheets
were missing.

Of the 15 members with missing timesheets, TFA later found timesheets for 1 of the members.
Because timesheets for the other 14 members were not provided to document the hours served,
their eligibility to earn an education award is unsupported. We therefore questioned $36,285 of
education awards for 14 members, as shown below. The education awards for 2 of the 14
members were not included in this total, because they were also questioned in Finding No. 1,
above.

                                                       Questioned
                           Award No.                Education Awards
                           04EDHNY002                     $25,117
                           04NDHNY002                      11,168
                           Total                          $36,285

According to the National Education Association, the average number of hours worked by
teachers is 50 hours per week. We considered a teacher’s work year to be about 40 weeks at 50
hours per week or 2000 hours a year. The following timesheet hours were identified as
unreasonable:

                                                5
       •       12 PY 2004-2005 members and 3 PY 2005-2006 members reported more than
               3,000 service hours;

       •       2 PY 2004-2005 members reported more than 4,000 service hours; and

       •       timesheets for four PY 2004-2005 members showed identical hours per month for
               the entire program year, except of the month of August, although the members
               taught at separate schools. Timesheets for an additional four PY 2005-2006
               members showed the same number of hours per week for the entire program year.
               TFA stated that members were given a sample timesheet as a template, and some
               members copied the template, thus reporting 1,705 hours based on the template.

During testing, we noted that most timesheets:

       •       lacked member and/or supervisor signature;
       •       were not dated or were dated at the end of the program year;
       •       were prepared in pencil rather than ink;
       •       were corrected using pencil and whiteout; and
       •       did not include member and supervisor initials for corrections.

TFA’s procedures required signatures and dates, but did not require use of ink, prohibit pencil and
whiteout corrections, or require that all changes to timesheets be initialed by the member and
supervisor.

AmeriCorps requirements do not specifically address timesheet procedures. It is, however, good
business practice to initial changes, make corrections without pencil or whiteout, sign and date
documents, and check the accuracy of hours recorded on timesheets. Without procedures to
verify member activities or timesheet accuracy, the potential exists that members may perform
prohibited activities or may receive unearned education awards. By initialing changes,
accountability is maintained that the changes are consistent with the members’ and management’s
intentions.

Recommendation: We recommend that the Corporation:

       •       Require TFA to develop and implement policies and procedures for verifying the
               accuracy and reasonableness of service hours reported in WBRS and on
               timesheets, ensuring that member timesheets are maintained in member files,
               identifying start and end dates on member timesheets, verifying activities
               performed by members, and verifying timesheet accuracy.

       •       Recover education awards for members without timesheets that support the service
               hours required to earn an award.




                                                 6
TFA’s Response: TFA did not agree that the member service hours were unreasonable. It did
however, revise its AmeriCorps policies and procedures to include policies for signing and dating
of timesheets, using ink, avoiding the use of white out, and initialing corrections.

Auditors’ Comments: TFA’s corrective actions, as described in its comments, are not completely
responsive to our recommendation. While TFA has modified its AmeriCorps policies for signing
and making changes to timesheets, and its procedures for recording timesheet hours in WBRS, it
has not implemented policies and procedures for verifying the accuracy of the member service
hours recorded in WBRS.

3.     Some members began and were credited for service before the start of the grant and
       program year.

In PY 2004-2005, 11 National Direct members began service before the July 15 grant start date
without Corporation approval. Additionally, in PY 2005-2006, 9 National Direct members began
service before the July 15 program start date without Corporation approval.

AmeriCorps Provisions, B.15.a.i., Budget and Programmatic Changes, Programmatic Changes,
requires prior written approval to be obtained from the AmeriCorps Program Office before
making changes in program scope, objectives, or goals even if they do not involve budgetary
changes. Further, the AmeriCorps 2002-2003 Program Director’s Handbook states that written
approval must be obtained for changes in the start and end dates of a grant.

TFA officials said they were unaware that service performed by members before the start of the
grant or program year could not be counted as service. After the deduction of ineligible service
hours, two members did not have enough service hours to be eligible for education awards. We
questioned the $9,450 of education awards for these two members.

Recommendation: We recommend that the Corporation:

       •       Require TFA to develop and implement policies and procedures to ensure that
               member service is performed within the appropriate grant and program year.

       •       Recover education award funds from TFA for those members who did not serve
               the required hours to earn an award.

Responses: TFA stated that in the future it will modify timesheets so that members can only
report service hours during the grant period. The Corporation will work with TFA to deduct any
hours served before the award was issued and ensure each member still qualifies for the education
award.

Auditors’ Comments: The corrective actions, as described in the comments, are responsive to
our recommendation.



                                                7
4.     TFA did not document its decision to grant an education award to a member who
       left the program for compelling personal circumstances.

One member was released early for compelling personal circumstances and received a partial
education award. It was noted in WBRS that the member had taken personal time off from
school and that snow days were not made up by the school where the member worked. TFA did
not, however, maintain documentation to support these circumstances or its decision to grant an
education award.

According to 45 CFR § 2522.230, Under what circumstances may AmeriCorps participants be
released from completing a term of service, and what are the consequences?, a program must
document the basis for any determination that compelling personal circumstances prevent a
participant from completing a term of service.

TFA did not have procedures to ensure that reasons for early releases were properly documented.
Without such procedures, members may earn partial education awards contrary to grant
provisions and regulations. We questioned the $4,542 education award for this PY 2004-2005
National Direct grant member.

Recommendation: We recommend that the Corporation:

       •      Require TFA to develop and implement policies and procedures to ensure
              compliance with grant requirements for documenting decisions to grant partial
              education awards to members who leave for compelling personal circumstances.

       •      Recover the education award funds for the member who lacked documented
              compelling personal circumstances to exit the program.

TFA’s Response: TFA modified its AmeriCorps policies and procedures to require
documentation of the circumstances for any member who is released early with a partial award.

Auditors’ Comments: TFA’s corrective actions, as described in its comments, are responsive to
our recommendation.

5.     TFA did not have documentation to support criminal record checks as part of the
       member screening process.

TFA could not provide documentation to support criminal records checks completed as part of the
screening process for 215 members. Supporting documentation was either never obtained by
TFA or was limited to certifications by TFA regional office program directors or employees of
school districts in which members were teaching. Although these individuals certified that results
of criminal records checks were considered in placing members, the certifications for the PY
2004-2005 members were dated several months after members had completed their PY 2004-
2005 service and the certifications for the PY 2005-2006 members were completed several
months after members started their PY 2005-2006 service.
                                                8
AmeriCorps Provision B.6.h., Criminal Record Checks, requires, to the extent permitted by state
law, that criminal record checks be conducted of members as part of the screening process.

In addition, eight PY 2004-2005 member files from one regional office contained documentation
that criminal record checks were conducted as part of the member screening process. These
checks were, however, conducted only in the local jurisdiction in which members were assigned
to teach or in the local jurisdiction the member lived in at the time of their application.
Nationwide criminal records checks were not conducted even though the members had recently
lived or attended school in other states. TFA did perform nationwide criminal record checks in
the following program year.

TFA relied on the school districts in which the members were teaching to conduct criminal record
checks as part of the member screening process, but did not verify, with school districts, that
criminal records checks were conducted until after members had served their terms. Without
documentation of required criminal record checks, members who should not have been working
with children may have had substantial direct contact with them, thus resulting in a potential
liability for the school districts, TFA, and the Corporation.

Recommendation: We recommend that the Corporation require TFA to develop and implement
policies and procedures for obtaining and retaining documentation to show that results of criminal
records checks were considered as part of the member screening process.

TFA’s Response: TFA noted that it relies on the school districts to perform criminal record
checks for the members and that limiting it to the jurisdictions performing the checks may not be
adequate. Additionally, TFA modified its AmeriCorps polices and procedures to include the
requirement that criminal record check verifications obtained from school districts should also
confirm that the results of the checks were considered in the placement of the member prior to the
start of service. TFA also noted that, for the 2006-2007 year, the signed verification was required
to be submitted at the beginning of the school year.

Auditors’ Comments: TFA’s corrective actions, as described in its comments, are responsive to
our recommendation.

6.     TFA did not complete most member enrollment, exit, and change-of-status forms
       and enter them into WBRS in a timely manner.

TFA did not enter 190 member enrollment forms into the Corporation’s Web-Based Reporting
System (WBRS) within 30 days of member service start dates. In addition, 33 other member
enrollment forms were signed and completed by members and supervisors more than 30 days
after the members started service. AmeriCorps Provision 16.b.i., Member Related Forms,
Enrollment Forms, requires enrollment forms to be submitted no later than 30 days after the
member is enrolled.




                                                 9
TFA did not enter 96 member exit forms in WBRS within 30 days of members completing
service. In addition, 60 other exit forms were signed and completed by members and supervisors
before the members finished service. AmeriCorps Provision 16.b.iii., Member Related Forms,
Exit/End-of-Term-of-Service Forms, requires enrollment forms to be submitted no later than 30
days after the member exits the program or finishes the term of service.

TFA did not enter 2 member change-of-status forms into WBRS within 30 days of status change.
AmeriCorps Provisions 16.b.ii., Member Related Forms, Change of Status Forms, requires
member change-of-status forms to be submitted no later than 30 days after member status is
changed.

TFA did not ensure that regional offices followed AmeriCorps requirements and provisions for
completing and submitting enrollment, exit, and change-of-status forms. Without timely
submission of these forms, the Corporation cannot maintain timely and accurate member records.

Additionally, TFA did not properly complete 24 member enrollment and exit forms. These
forms:

       •       lacked member and/or supervisors signatures;
       •       were completed in pencil; or
       •       were undated.

AmeriCorps requirements do not specifically address procedures for preparing forms. It is,
however, good business practice to prepare, sign, and date documents in ink. When member
forms are prepared with pencil and not dated, it is difficult to determine if unauthorized
alterations have been made, and an audit trail does not exist to determine if the changes were
authorized.

Files for 53 members were missing either the entire enrollment and exit forms or pages of
enrollment and exit forms, and 56 member files did not contain the page requiring program
directors to certify member eligibility for education awards to the National Service Trust.

AmeriCorps Provision C.27., Retention of Records, requires that grantees retain all program
records for 3 years from the date of submission of the final Financial Status Report. Additionally,
if an audit is started before expiration of the 3-year period, records must be retained until audit
findings are resolved and final action completed.

TFA officials said they were unable to explain why the forms were not in the member files, but
were aware that some forms were missing. TFA had placed a certification, signed by the regional
office program manager, in some files, stating that forms were missing.

Recommendation: We recommend that the Corporation require TFA to develop and implement
policies and procedures to ensure that member enrollment, exit, and change-of-status forms are
maintained in member files, submitted to the Corporation as required; forms are completed in ink,
and changes are initialed and approved accordingly.
                                                10
TFA’s Response: TFA will communicate paperwork and WBRS deadlines to the executive
directors of the regions. TFA’s development operations specialist will continue to monitor each
region’s progress weekly in WBRS, and will follow up with regions that are falling behind to
ensure that all forms are entered on a timely basis. TFA will continue to emphasize to staff that
member and supervisor signatures are needed on forms. TFA updated its AmeriCorps policies
and procedures to require that forms be completed in ink and that all changes to forms are
initialed. In addition, TFA distributed to staff its file retention polices to clarify how long
documents should be retained.

Auditors’ Comments: TFA’s corrective actions, as described in its comments, are responsive to
our recommendation.

7.     Most member contracts were not signed and several did not include all required
       elements.

Files for 169 members did not contain member contracts. AmeriCorps Provision B.7.b.,
Training, Supervision and Support, Member Contracts, requires members to sign contracts that
stipulate responsibilities and rights. TFA did not require first-year members to sign contracts, but
required them to review contracts and electronically sign a commitment statement indicating
agreement with contract terms and conditions. Members were not required to recertify their
commitment statements in the following year. Further, 32 member files contained member
contracts undated by members or prepared in pencil.

The contract used by TFA in PY 2004 did not stipulate the minimum number of service hours
necessary to successfully complete a term of service and to be eligible for an education award. It
also did not identify prohibited activities, state that the members were participating in the
AmeriCorps program, or identify the amount of education award they were eligible to receive.
AmeriCorps Provision B.7.b., Training, Supervision and Support, Member Contracts, requires
that members sign contracts stipulating the minimum number of service hours and prohibited
activities. Failure to sign member contracts that include all necessary stipulations could result in
members being unaware of their rights and responsibilities.

TFA officials were aware that the contract did not comply with the AmeriCorps provisions and
noted that they had worked with the Corporation to develop the PY 2005 member contract to
ensure that it met the AmeriCorps requirements. The 2005 member contracts in our testing
included all AmeriCorps requirements.

Recommendation: The member contracts now include all of the required information. We
recommend that the Corporation require TFA to develop and implement policies and procedures
to ensure that a signed and dated contract is obtained and retained for each member for each year
of service.

TFA’s Response: TFA now requires first-year members to sign a hard copy of the member
contract.


                                                 11
Auditors’ Comments: TFA’s corrective action, as described in its comments, is responsive to our
recommendation.

8.     TFA did not conduct member evaluations that met AmeriCorps requirements and
       did not document all evaluations.

TFA conducted observations of member teaching performance three times a year. These
observations did not, however, comply with the AmeriCorps program requirements. The
observation forms did not document whether the members completed the required number of
service hours, satisfactorily completed assignments, and met other performance criteria
communicated to members at the beginning of service.

According to 45 CFR § 2522.220(d), Participant performance review, a participant is not eligible
for a second or additional term of service and/or for an AmeriCorps education award without
mid-term and final evaluations. Grantees also are required to conduct mid-term and final
evaluations at a minimum of each member’s performance and document that the member has:

       •       completed the required number of hours;
       •       satisfactorily completed assignments; and
       •       met other performance criteria communicated at the beginning of the service term.

Evaluations are necessary to ensure that members are eligible for additional service terms and that
grant objectives have been met. TFA officials said they were unaware that their member
observations did not comply with AmeriCorps requirements and were unable to explain why
evaluation forms were not always in member files.

Recommendation: We recommend that the Corporation require TFA to conduct and document
member evaluations that meet AmeriCorps program requirements.

TFA’s Response: TFA is working with its program officers to determine how to translate the
evaluation information it collects into a format that complies with AmeriCorps requirements and
is acceptable to the Corporation.

Auditors’ Comments: We continue to recommend that the Corporation ensures TFA complies
with AmeriCorps program requirements for member evaluations.

9.     TFA reported excessive hours for training and education activities for some
       members.

According to hours reported in WBRS, Education Award-Only members in PY 2004-2005 spent
more than 20 percent of all service hours in training and education activities. In addition,
National Direct members exceeded the 20-percent aggregate training limitation at one regional
office in PY 2004-2005 and two regional offices in PY 2005-2006.



                                                12
According to 45 CFR § 2520.50, How much time may Americorps members in my program spend
in education and training activities?, and AmeriCorps Provision, Section B.7.e., Limit on
Education and Training Activities, no more than 20 percent of the aggregate of all AmeriCorps
member service hours in a program may be spent in training and educational activities.

TFA required members to record their service hours as either direct or non-direct. Non-direct
hours were reported in WBRS as training and education activities. According to TFA’s policies,
non-direct service hours included more than training and education, as follows:

       •       Corps Development Nights
       •       Regional Induction
       •       Entire Summer Institute
       •       Recruitment Events
       •       Workshops
       •       Conferences/Conventions
       •       Corps Service Projects

As a result, total training and educational hours reported in WBRS may be overstated, because
they include other activities.

Recommendation: We recommend that the Corporation require TFA to revise its policies and
procedures to ensure that it reports only training and educational activities as training hours in
WBRS.

TFA’s Response: TFA modified its timesheet category descriptions on its PY 2006-2007
timesheets to ensure that no direct service hours are included under training. Member service
hours are now categorized as Service, Training, and Fundraising.

Auditors’ Comments: TFA’s corrective actions, as described in its comments, are responsive to
our recommendation.

10.    TFA did not retain documentation of member attendance at orientation sessions.

The three regional offices we visited did not retain sign-in sheets or other documentation to
support member attendance at AmeriCorps orientation sessions.

AmeriCorps Provision B.7.c., Training, Supervision, and Support, states that grantees are
required to provide members with the training, skills, knowledge, and supervision necessary to
perform tasks required in their assigned project positions, including specific training in a
particular field and background information on the community served. Additionally, AmeriCorps
Provision C.27., Retention of Records requires grantees to retain all program records for 3 years
from the date of submission of the final Financial Status Report. If an audit is started before the
expiration of the 3-year period, records must be retained until audit findings are resolved and final
action completed.


                                                 13
TFA regional offices were unable to provide documentation to support member attendance at
orientation. TFA officials were unaware that it was necessary to retain orientation sign-in sheets
beyond the current year, and did not have a policy for retaining sign-in-sheets. Retention of
orientation sign-in sheets is necessary to ensure that members are knowledgeable about properly
fulfilling all program requirements.

Recommendation: We recommend that the Corporation require TFA to develop and implement
policies and procedures to ensure that it retains all documentation to support member attendance
at orientation.

TFA’s Response: TFA stated that, beginning in the summer of 2007, it will retain orientation
sign-in sheets for the required period of time.

Auditors’ Comments: TFA’s corrective actions, as described in its comments, are responsive to
our recommendation.



We were not engaged to, and did not perform an examination, the objective of which would be
expression of an opinion on the subject matter. Accordingly, we do not express such an opinion.
Had we performed other procedures, other matters might have come to our attention that would
have been reported to you.

This report is intended solely for the information and use of the OIG, Corporation, TFA, and U.S.
Congress and is not intended to be and should not be used by anyone other than these specified
parties.


COTTON & COMPANY LLP



Michael Gillespie, CPA, CFE
Partner




                                                14
      APPENDIX A

AGREED-UPON PROCEDURES
                                     APPENDIX A
                               AGREED-UPON PROCEDURES


We sampled 265 members using National Trust member rosters obtained from the
Corporation and visited the Washington, DC; Philadelphia, and New York City regional
offices. We performed the following procedures:

       •      Verified that members were U.S. citizens, nationals, or law permanent
              residents and obtained high-school diplomas or equivalency certificates.

       •      Verified that criminal record checks were conducted for members with
              substantial recurring contact with children or vulnerable individuals.

       •      Verified that contracts were signed by members and included required
              AmeriCorps stipulations.

       •      Verified that mid-term and end-of-term performance evaluations were
              documented.

       •      Verified that timesheets supported member eligibility to earn education
              awards and verified that member service hours reported in WBRS agreed to
              hours recorded on member timesheets.

       •      Verified eligibility for education awards for those members released for
              compelling personal circumstances.

       •      Verified that TFA certified to the National Service Trust that members were
              eligible to receive education awards.

       •      Verified that member enrollment, exit, and change-of status-forms were
              completed and approved in WBRS within 30 days of members starting and
              ending service or change of status.

       •      Verified that no more than 20 percent of the aggregate of all AmeriCorps
              member service hours was spent in training and educational activities.

       •      Verified that member timesheets, forms, and contracts were in member files
              and were signed, dated, and did not contain discrepancies.

       •      Verified that members at the three regional offices visited attended
              orientation.
                         APPENDIX B

TEACH FOR AMERICA’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
 One day, all children in this nation will have the opportunity to attain an excellent education.


                                              TE A C H F O R A M E R E CA




Programmatic Audit Finding # 1: Member files did not include documentation to support
eligibility.

A. Citizenship Status. Teach For America recognizes that, historically, there were some gaps in the
retention of required eligibility documents. In some cases, our admissions team was unclear on which
documentation served this purpose and accepted Drivers' Licenses and Social Security Cards. In
additional cases, proper documentation was obtained from corps members but sent off-site to school
districts for payroll purposes without duplicate records kept for our files. Both of these issues, however,
have since been addressed. All applicants who are invited to a final interview with Teach For America
must present legal documentation that confirms their status as a citizen, national, or lawful permanent
resident of the United States. This requirement is clearly stated on our website at
http:llwww.teachforamerica.orgladmissionslhow to applylrequirements.htm. In addition, our admissions
team has instituted additional checks in our matriculation process to ensure that documentation from
final interviews meet federal eligibility regulations. This policy is further reinforced in our AmeriCorps
Programmatic Compliance Policies and Procedures (hereafter referred to as the "Policies and
Procedures "). See Appendix I, Policies and Procedures, Page 6.

B. High School Graduation. A high school diploma or its equivalent is a prerequisite to attending an
accredited higher education institution. Teach For America corps members must have received their
bachelor' s degree from an accredited college or university by the first day of our summer institute,
which begins in mid to late June of each year, and we collect college transcripts for each corps
member. This requirement is, again, outlined on our website as is the requirement to have received a
high school diploma or high school equivalency certificate at
http:llwww.teachforamerica.orgladmissionslhow to applylrequirements.htm.

Our admissions team sends college transcripts to each corps member ' s regional site, as part of a larger
file for the member. College transcripts are submitted to Teach For America during the admissions
process, and each transcript is reviewed in depth to ensure that each applicant meets both our
organizational grade point average minimum and has the sufficient coursework required by each state's
alternative teacher certification program. Despite this practice, missing transcripts may have been
misfiled or sent off-site to university partners and/or school districts.

Since winter of 2006, a member of the development operations team has conducted an Introduction to
AmeriCorps training for regional staff who work with corps member files. During this training, the
importance of retaining all paperwork that comes in the admissions files is stressed. Additionally,
college transcripts are also listed on our Corps Member File Checklist, which was created in fall 2005
and is now found in each member file. See Appendix II for a sample Corps Member File Checklist.




                                              A N A M E RE CO RP S P RO G RA M

               315 W.
                    36t
                      hSt
                        ree
                          t,6
                            thf
                              loo
                                r•New York, N Y   10018•P 212 279-2080           r 2 12 279-2
                                                                                            081•www.teachforamerica.org
 One day, all children in this nation will have the opportunity to attain an excellent education.


                                               TEACHFORAMERICA

Programmatic Audit Finding # 2: Timesheets did not support member eligibility for education
awards, timesheet hours were not accurately recorded by TFA in the Corporation'sWeb-Based
Reporting System (WBRS) or reviewed for reasonableness.


A. Reasonableness of Hours. We do not agree that it is unreasonable for Teach For America corps
members to exceed the required 1700 service hours. As discussed in our exit conference, Teach For
America corps member hours frequently exceed the average hours worked by other teachers due to the
nature of our program. During our intensive five-week summer institute, corps members work long
hours during the summer when other teachers are not typically in the classroom. In the mornings and
early afternoons, corps members teach in a district summer school program, under the close
supervision of veteran educators from the hosting school district and Teach For America instructional
staff. In the late afternoons and evenings, corps members participate in interactive courses and clinics
to build knowledge, deepen skills, and apply learning to upcoming teaching. They then work to
prepare lesson plans and materials late into the evening.

During the school year, corps members are involved in evening certification coursework, as well as
evening and weekend professional development through university partners and Teach For America.
Our corps members face steep learning curves as new teachers and often put extreme hours into
activities such as planning, prepping, tutoring, leading extracurricular programs, investing parents and
other associated activities. Our experience is that many corps members work 60-70 hours each week;
and some work even more. For all these reasons, we are not surprised to see member timesheets
reflect hours well above the 1700 hour minimum.

B. Accuracy of Hours. As stated in Cotton & Co. s reports, timesheet samples were used by our New
                                                          '


York City site in the past, but are no longer in use, to eliminate the possibility of members failing to
accurately reflect their own hours. In the fall of 2006, we set clearer policies around timesheet
approvals (i.e., the signing and dating of timesheets) and have added policies to comply with auditors'
suggestions on using ink, avoiding the use of whiteout, and initialing corrections. See Appendix I,
Policies and Procedures, Page 25.

Programmatic Audit Finding # 3:         Members began and were credited for service before the
start of the grant and program year.

Teach For America acknowledges that hours may not be counted prior to start of grant year. We
attribute past issues to monthly timesheets where weeks prior to the start date were not blacked out
and start dates fell mid-month for some grants. Since our corps members were working the entire
month, they often recorded hours that fell prior to our start date (since our grants usually began mid-
month). We eventually began blacking-out weeks prior to start date, but in some cases, start dates
fell mid-week. In such cases, corps members sometimes recorded hours for full week. We will work to
remedy this in future by ensuring that only grant dates are included on timesheets, so that i t s very
                                                                                              '


clear to members when they may begin recording hours.




                                             A N A M E RI C O RP S P R O G R A M

               315 W.
                    36t
                      hSt
                        ree
                          t,6
                            thFl
                               oor•New York, NY 10018 •P2
                                                        122
                                                          79-2080 P 212 279-2
                                                                            081•www.
                                                                                   te
                                                                                    ach
                                                                                      for
                                                                                        ame
                                                                                          ri
                                                                                           ca
                                                                                            .or
                                                                                              g
 One day, all children in this nation will have the opportunity to attain an excellent education.

                                                       T EA C H F O R A M E R I C A




Programmatic Audit Finding # 4:       TFA did not document its decision to grant an education
award to a member who left the program for compelling personal circumstances.

Teach For America acknowledges this gap in documentation. We have recently modified our policies
to require documentation of the circumstances for any member who is released early with a partial
award. See Appendix I, Policies and Procedures, Page 29 & 34-35.

Programmatic Audit Finding # 5:        TFA did not have documentation to support criminal
record checks as part of the member screening process.

A. Documentation of Background Checks. Background checks on all Teach For America corps
    members are done (by school districts) prior to the start of each school year. At the outset of the
    program year 2005-06, we began to receive signed background check verifications from school
    districts, but the verifications were not requested until late fall, at which time we requested
    verifications for that year and preceding years as well. For the 2006-07 year, however, we
    required this signed verification at the beginning of the school year in order to comply with this
    requirement. See Appendix I, Policies and Procedures, Pages 4 & 8.

B, Jurisdiction of Background Checks. Per our exit conference and as stated above, we have relied on
school district policies and procedures to meet federal background check requirements. However, we
acknowledge that the jurisdiction of school district background checks may not be expansive enough.
We understand the importance of thorough background checks before placing Teach For America
corps members in vulnerable communities and are working with our General Counsel to provide better
assurances on member background checks as soon as possible. We are also aware that AmeriCorps has a
new proposed rule regarding background checks, and will ensure that we are in compliance with any
new guidelines when they are approved.

Programmatic Audit Finding # 6:        TFA did not complete member enrollment, exit, and
change-of-status forms and enter them into WBRS in a timely manner.

A. Timeliness of WBRS Entries. Given the size of our program, the timely completion of
enrollment and exit forms has been an ongoing challenge. We have made and continue to make
efforts to improve timeliness by implementing new procedures and adding a level of central
management from the national office. Our development operations specialist is tasked with the
ongoing monitoring of WBRS enrollment at critical times of year.

Since the summer of 2005, we have been sending periodic communications to all sites to reinforce
procedures and deadlines for enrollments and exits throughout the year and then following up with
sites during 30-day windows. Beginning in the spring of 2006, the development operations specialist
has joined monthly conference calls with the regional staff who manage AmeriCorps programmatic
responsibilities. On these monthly calls and in email communications last spring, our




                                                      A N A M E RI C O RP S P R O G R A M

               315 W. 36tIr S
                            tre
                              et,
                                6thFl
                                    oor•New York, NY 1 0 0 1 8    •P 212       279-2080 F 2 1 2 279-2
                                                                                                    081•www.teachforamerica.org
 One day, all children in this nation will have the opportunity to attain an excellent education.


                                                      TEACH FORAMERICA


 specialist outlined the requirements involved in the closeout and start up of the next year. At this
 time, paperwork requirements were emphasized and suggestions were made to regions on available
 opportunities to communicate with and collect paperwork from corps members in advance of the
 WBRS deadlines. This verbal communication was accompanied by an email providing the same
 information in writing. However, due to turnover on regional teams, we still experienced some
 paperwork gaps.

 In the future, to ensure that we have all required paperwork in a timely manner, we will begin to
 communicate paperwork and WBRS deadlines to executive directors of the regions as well (starting
 in the spring of 2007), so that they can determine who on their staff should manage this process if
 their team is undergoing transition. During the 30-day period when enrollments or exits are being
 completed, the development operations specialist will continue to monitor each region 's progress
 weekly in WBRS, and follow up with regions that seem to be falling behind.

 B. Preparation of Forms. We are continually emphasizing to staff that we need member and
 supervisor signatures and dates on forms, and have updated policies to require ink and initialing of
 changes to forms. See Appendix I, Policies and Procedures, Page 22 & 29.

 C. Retention of Forms, In the fall of 2006, our national administration team revised and
 redistributed file retention policies to clarify for staff how long they need to keep paperwork. See
 Appendix III, Administration Policies and Procedures, Pages 62-63.

 Programmatic Audit Finding # 7:                 Member contracts were not signed and did not include all
 required elements.

 Teach For America corps members are required to re-certify their 2° `' year, and the signed copy of the
 second-year contract is kept in the AmeriCorps file. This policy was enacted in the beginning of the
 2005-06 year. See Appendix 1, Policies and Procedures, Page 4.

  Per recent guidance from our AmeriCorps program officers, we will also begin to have corps members
sign a hard copy of the member contract (our current practice has been to have them electronically sign
as they matriculate into our program online, with the date and time of their sign-off recorded by our
matriculation portal).

Programmatic Audit Finding # 8:        TFA did not conduct member evaluations that met
AmeriCorps requirements and did not document all evaluations.

 A . Member Evaluations. Teach For America evaluates its members thoroughly and consistently
against standards designed to meet the professional obligations of being an effective classroom teacher.
As a professional corps, we must be mindful of the professional requirements associated with our corps
members' work. Consequently we have crafted an evaluation process that ensures regular evaluation and
coaching that are based in the development of our corps members as effective




                                                     A N A ME RI C O RP S P R O G RA M


               315 W. 36th Street, 6th Floor •New York, NY 10018•P212279-2080 P 212 279-2
                                                                                        081•www.teachforamerica.org
 One day, all children in this nation will have the opportunity to attain an excellent education.


                                                    TEACHFORAMER1CA

teachers. While many elements of the AmeriCorps evaluation forms match elements of Teach For
America's evaluation process, there are some instances where the forms are not applicable to the
professional obligations of the corps members.

In each of the 25 urban and rural areas where corps members are placed, Teach For America has a staff
of experienced educators, almost all of whom are program alumni. Our regional staff ensures corps
members have teaching placements, helps them prioritize where to focus for improvement, and ensures
they are accessing meaningful learning experiences to build the knowledge, skills and mindsets
necessary for classroom success. Teach For America program directors go through four formal
evaluation cycles with each corps member per year. Each cycle involves reviewing student achievement
data, conducting detailed observations, and the program director and corps member jointly problem
solving to identify the root causes of any current gaps in student achievement to determine additional
steps the corps member might take to improve student achievement.

As an example of an area of the AmeriCorps evaluation form that is not directly applicable to the
corps members' professional obligations, "completing assignments " is not a match with corps members'
daily work as classroom teachers. Additionally, because we view teaching as a process of continuous
improvement in an effort to constantly become more effective, there is never a time when corps
members have "met" the performance criteria.

Beginning this year (2006-07), the corps member evaluation data collected through each of these
formal cycles is recorded in a tracking system, and we are discussing with our AmeriCorps program
officers how we can use this system to satisfy the member evaluation requirement.

B. Standard Evaluation Forms. As stated above, we are working with our AmeriCorps program
officers to determine how best to translate the extensive evaluation information we already collect
into an acceptable format that complies with requirements.


Programmatic Audit Finding # 9:              TFA reported excessive hours for training and educational
activities.

Teach For America has modified its timesheet category descriptions on PY 2006-07 timesheets to
ensure that no direct service hours are included under training. See Appendix IV for a sample PY
2006-07 Timesheet.

Programmatic Audit Finding # 10: TFA did not retain documentation of member attendance at
orientation sessions.

The trainings that provide members with the knowledge and many of the skills they need for their two
year teaching commitments take place at Teach For America' s five-week training institute. The training
institute is a prerequisite to being placed in a classroom, and we guarantee that all corps




                                                  A N A M E RI C O RP S P R O G R A M

               315 W.
                    36t
                      hSt
                        ree
                          t,6
                            thFl
                               oor•New York, NY 1 0 0 1 8    •P 212    279-208 0 F 21 2 27 9-20 81   •wwwteachforamerica.org
 One day, all children in this nation will have the opportunity to attain an excellent education.


                                                        T E A C HF O RA M E R ICA


members who begin teaching attend the institute. The orientations referenced by Cotton & Co. in their
draft reports are the trainings that regional staff members conduct (usually in August) to orient corps
members to their local teaching landscape and their obligations as AmeriCorps members. Starting next
year (summer 2007), we will retain orientation sign-in sheets for the required period of time.




                                                       A N A M E RI C O RP S P R O G R A M

               315 W. 36th Street, 6th Floor •New York, NY 10018 •P 212 279-2080 F           212   279-2081 •www.teachforamerica.org
                      APPENDIX C

CORPORATION’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
